Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



 AXERION THERAPEUTICS
  GENERALLY CLAIMED
ALLOWABLE RECOVERY ACT
     GRANT COSTS



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                 Michael J. Armstrong
                                               Regional Inspector General

                                                     September 2012
                                                      A-01-11-02509
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted on February 17, 2009, provided $8.2 billion to the Office of the Director of the
National Institutes of Health (NIH) to help stimulate the economy through the support and
advancement of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4
billion to NIH institutes, centers, and offices and to the NIH Common Fund. In addition,
the Recovery Act provided $400 million for comparative effectiveness research. NIH
allocated $300 million of Recovery Act funding to the National Center for Research
Resources for shared instrumentation and other capital equipment.

Recovery Act funds were used to award grants and cooperative agreements to research
entities including nonprofit and for-profit organizations, universities, hospitals, research
foundations, governments and their agencies, and occasionally individuals.

Axerion Therapeutics (the grantee), established in 2009, is a private biotechnology
company focused on developing therapeutics for neurological diseases and injuries. NIH
awarded the grantee a Recovery Act grant of $3 million for research related to neurological
recovery from spinal cord injury and stroke. The grant budget period is April 15, 2010,
through March 31, 2013. As of March 31, 2011, the grantee had claimed $950,844 under
the grant; we reviewed the total amount claimed by the grantee.

OBJECTIVE

Our objective was to determine whether costs claimed by the grantee were allowable under
the terms of the grant and applicable Federal regulations.

SUMMARY OF FINDING

The grantee claimed costs of $950,844 that were allowable under the terms of the grant and
applicable Federal regulations; however, the grantee did not account for the $53,966 in
proceeds earned from the sale of equipment that was purchased for the grant.

RECOMMENDATION

We recommend that NIH work with the grantee to account for the $53,966 in proceeds
earned from the sale of equipment.

AXERION THERAPEUTICS COMMENTS

In written comments on our draft report, the grantee did not concur with our initial
recommendation that NIH recover $53,150 that the grantee claimed in unallowable




                                               i
equipment costs. The grantee stated that it had an opportunity to purchase a biologics lab,
which included equipment, to conduct the research outlined in the grant award. The
grantee stated that it sold pieces of equipment during 2010 that it concluded were not
necessary for the research grant. Based on its review of the Federal regulations and
discussions with NIH staff, the grantee stated that it concluded that the sale of this
equipment did not require it to return the funds to NIH because it planned to use the funds
to support its NIH grant research in the future. The grantee stated that it had determined
that it would use the funds in grant year 2 by not requesting grant reimbursement from NIH
once it exceeded $2 million of expenses for grant years 1 and 2. The grantee’s comments
are included in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

After discussions with NIH officials, we revised our recommendation in this draft report.
We originally recommended that NIH recover $53,150 that the grantee claimed for
unallowable equipment costs, but we now recommend that NIH work with the grantee to
account for the $53,966 in proceeds earned from the sale of the equipment.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments to our draft report, NIH concurred with our finding and
recommendation. NIH’s comments, excluding technical comments that we address in this
report as appropriate, are included in their entirety as Appendix B.




                                             ii
                                              TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
              Federal Requirements for NIH Grantees ..........................................................1
              Axerion Therapeutics ........................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................1
               Objective ...........................................................................................................1
               Scope .................................................................................................................1
               Methodology .....................................................................................................2

FINDING AND RECOMMENDATION ..............................................................................2

          FEDERAL REQUIREMENTS .....................................................................................2

          SALE OF EQUIPMENT ..............................................................................................3

          RECOMMENDATION ................................................................................................3

          AXERION THERAPEUTICS COMMENTS ..............................................................3

          OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................4

          NATIONAL INSTITUTES OF HEALTH COMMENTS ...........................................4

APPENDIX

          A: AXERION THERAPEUTICS COMMENTS

          B: NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                iii
                                                        INTRODUCTION

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted on February 17, 2009, provided $8.2 billion to the Office of the Director of the
National Institutes of Health (NIH) to help stimulate the economy through the support and
advancement of scientific research. Of the $8.2 billion, the Recovery Act transferred $7.4
billion to NIH institutes, centers, and offices and to the NIH Common Fund. In addition,
the Recovery Act provided $400 million for comparative effectiveness research. NIH
allocated $300 million of Recovery Act funding to the National Center for Research
Resources for shared instrumentation and other capital equipment.

Recovery Act funds were used to award grants and cooperative agreements to research
entities including nonprofit and for-profit organizations, universities, hospitals, research
foundations, governments and their agencies, and occasionally individuals.

Federal Requirements for Grantees

The Uniform Administrative Requirements for awards and subawards that apply to
commercial organizations are found at 45 CFR Part 74.

Axerion Therapeutics

Axerion Therapeutics (the grantee), established in 2009, is a commercial biotechnology
company focused on developing therapeutics for neurological diseases and injuries. NIH
awarded the grantee a Recovery Act grant of $3 million for research related to neurological
recovery from spinal cord injury and stroke. The grant budget period is April 15, 2010,
through March 31, 2013. As of March 31, 2011, the grantee had claimed $950,844 under
the NIH grant.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by the grantee were allowable under
the terms of the grant and applicable Federal regulations.

Scope

We reviewed the total $950,844 in costs that the grantee claimed for the NIH grant through March 31, 2011. The grantee
claimed the total amount as direct costs in support of its research project.


We limited our assessment of the grantee’s internal controls to those that relate to our audit objective. We performed




                                                                      1
fieldwork at the grantee’s administrative office in New Haven, Connecticut, in July and August 2011.


Methodology

To accomplish our objective, we:

     •     reviewed applicable Federal laws, regulations, and other guidance;

     •     reviewed grant announcements, grant applications, and grant award notices;

     •     identified expended funds in the grantee’s accounting records as of March 31, 2011;

     •     summarized costs by cost category from expenditure reports;

     •     recalculated amounts on the March 31, 2011, expenditure report to verify
           mathematical accuracy;

     •     analyzed differences between budgeted and actual expenditures;

     •     reviewed costs claimed under the grant for allowability; and

     •     discussed the results of our review with grantee officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.

                                    FINDING AND RECOMMENDATION

The grantee claimed costs of $950,844 that were allowable under the terms of the grant and
applicable Federal regulations; however, the grantee did not account for the $53,966 in
proceeds earned from the sale of equipment that was purchased for the grant.

FEDERAL REQUIREMENTS

Pursuant to the program income rules at 45 CFR 74.24(g), proceeds from the sale of
property should be handled using the rules at 45 CFR 74.30-37. Section 74.34(g)(4) states
that “[i]f the recipient’s project or program for which or under which the equipment was
acquired is still receiving support from the same HHS program, and if the HHS awarding
agency approves, the net amount due may be used for allowable costs of that project or
program. Otherwise the net amount must be remitted to the HHS awarding agency by




                                                                  2
check.” The NIH Grants Policy Statement (December 2003) 1 states that NIH applies the
additive alternative to all grantees, including for-profit entities, unless the program income
is earned as a result of the sale of, among other things, equipment. In that case, if the
grantee is still receiving support for the grant from NIH at the time of the sale, “the grantee
must credit the NIH share of the proceeds to the grant and use that amount under the
deductive alternative for program income.” 2

SALE OF EQUIPMENT

In July 2010, the grantee purchased a used biologics lab to conduct the research described
in the grant. The grantee purchased the entire lab, including all of the equipment
contained in the lab. The purchase price of the lab equipment was approximately
$317,000, whereas its value new, according to the grantee, was $1,082,000. The lab
included most of the equipment that the grantee needed to conduct the required research,
but the lab also included some equipment that the grantee did not need. In December
2010, the grantee sold the equipment that it did not need for $53,966. The grantee’s NIH
grants management officer verbally authorized the grantee to use these funds in support of
the grant in the future. The grantee determined that the funds from the sale of the
equipment would be used to support the grant in grant year 2.

RECOMMENDATION

We recommend that NIH work with the grantee to account for the $53,966 in proceeds
earned from the sale of the equipment.

AXERION THERAPEUTICS COMMENTS

In written comments on our draft report, the grantee did not concur with our initial
recommendation that NIH recover $53,150 3 that the grantee claimed for unallowable
equipment costs. The grantee stated that it had an opportunity to purchase a biologics lab,
which included equipment, to conduct the research outlined in the grant award. The
grantee stated that it sold pieces of equipment during 2010 that it concluded were not
necessary for the research grant. Based on its review of the Federal regulations and

1This version of the NIH Grants Policy Statement was effective for all NIH grants and cooperative
agreements with budget periods beginning on or after December 1, 2003, through September 30, 2010.

2 Section 3.03.103-2.C.2 of the HHS Awarding Agency Grants Administration Manual (AAGAM) states that
program income does not include the proceeds from the sale of nonexempt equipment. Equipment purchased
by a commercial entity like Axerion is considered nonexempt. According to the AAGAM, these sales
proceeds must be treated as an “applicable credit” pursuant to the cost principles. The applicable credit rules
for commercial organizations are found at 48 CFR §§ 31.201-1(a) and 31.201-5 and require that “any income,
rebate, allowance, or other credit relating to any allowable cost ... shall be credited to the Government either
as a cost reduction or by cash refund.”

3   We determined that this equipment was valued at $53,150.




                                                       3

discussions with NIH staff, the grantee stated that it concluded that the sale of this
equipment did not require it to return the funds to NIH because it planned to use the funds
to support its NIH grant research in the future. The grantee stated that it had determined
that it would use the funds in grant year 2 by not requesting grant reimbursement from NIH
once it exceeded $2 million of expenses for grant years 1 and 2. The grantee’s comments
are included in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

After discussions with NIH officials, we revised our recommendation in this draft report.
We originally recommended that NIH recover $53,150 that the grantee claimed for
unallowable equipment costs, but we now recommend that NIH work with the grantee to
account for the $53,966 in proceeds earned from the sale of the equipment.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In written comments to our draft report, NIH concurred with our finding and
recommendation. NIH’s comments, excluding technical comments that we address in this
report as appropriate, are included in their entirety as Appendix B.




                                             4
APPENDIXES
                                                                                           Page 1 of 2
               APPENDIX A: AXERION THERAPEUTICS COMMENTS


                              AXER/ON THERAPEUTICS, INC.



 To: 	           Department of Health and Human Services                    March 13,2012
                 Office of Audit Services, Region I
                 John F. Kennedy Federal Building
                 Room 2425
                 Boston, MA 02203


 From: 	         Sean Cassidy
                 Chief Financial Officer
                 Axerion Therapeutics

 Subject: 	      Written Response to Report Number A-O 1-11-02509



 Axerion Therapeutics was awarded an American Recovery and Reinvestment Act of2009 grant
 of$3 million for research related to spinal cord injury. The grant is funded in annual increments
 based on scienti fic progress of $i.OM per grant year for three years and the grant budget period
 is April 15,20 I 0 through March 31,2013. Axerion Therapeutics was selected for review by the
 Office ofInspector General for grant year 1 (April 15,2010 to March 31,2011) and had claimed
 $950,844 of qualified expenses during this period. The Office of Inspector General had one
 finding and one recommendation related to this review which is as follows:

         SUMMARY OF FINDING

         The grantee claimed costs of $898, 194 that were allowable under the terms of the grant
         and applicable Federal regulations. However, the grantee claimed equipment and supply
         costs totaling $53,150 there were not necessary for the grant and, therefore, were not
         allowable under the terms of the grant and Federal regulations. The grantee claimed
         these unallowable costs because it did not adequately evaluate its equipment and supply
         needs.

         RECOMMENDATION

         We recommend that NIH recover $53,150 that the grantee claimed for unallowable
         equipment and supply costs.

Axerion Therapeutics does not concur with the finding or recommendation.

At the beginning of the grant, Axerion was presented the opportunity to purchase a "turn key"
biologics lab to conduct the research outlined in the grant award. The lab was outfitted with a
majority of the necessary equipment and some supplies required to develop the Nogo Decoy
Receptor Protein. The price to purchase the used lab equipment was $317 thousand as compared
                                                                                            Page 2 of 2



  to $1,082 thousand that the equipment cost when purchased new in prior years by another
  organization . This was an "all or nothing" purchase opportunity and allowed Axerion to begin
  operations immediately and hire staff to work in the lab. Axerion considered many factors when
  considering the purchase of this equipment including:

             o 	 Significant cost savings as compared to purchasing the equipment new
             o 	 The several months it would have taken to purchase the equipment new and set up
                 the equipment in a lab
             o 	 Axerion's ability to create jobs quickly, an essential guideline as part of all
                 Recovery Act awards

 Axerion purchased the used lab equipment in July 2010 utilizing NIH funds.

 The Vice President of Process Science conducted a detailed review of the newly purchased lab
 equipment in the third quarter of 20 I 0 and concluded that a couple of pieces of equipment were
 not necessary. The Vice President of Process Science sold certain pieces of equipment in the
 third and fourth quarter of2010.

 During the first quarter of 201 I, a significant amount of research was conducted to determine if
 the funds received from the sale of the equi pment would be required to be returned to the NTH
 since these funds were originally purchased with NIH Grant Funds. A review of 45 CFR Part 74
 "UNIFORM ADMINISTRATIVE REQUIREMENTS FOR AWARDS AND SUBAWARDS TO
 INSTITUTIONS OF HIGHER EDUCATION, HOSPITALS, OTHER NONPROFIT ORGANIZATIONS, AND
 COMMERCIAL ORGANIZATIONS" was conducted with particular attention given to 74.30 - 74.37
and 74.82. Tn addition to a review of these terms and conditions, a discussion was held with
Jeannette Gordon, the Grants Management Officer assigned to our NTH Grant. Based on the
review of 45 CFR Part 74 and discussions with Jeannette Gordon, it was concluded that the sale
of this equipment would not require the return offunds to the NIH in the event that these funds
would be used in support of the specific aims in the NIH Grant in the future. After a review of
the planned expense of the Nogo research budget from April 1,2011 to March 31, 2012 it was
determined that these funds from the sale of equipment would be utilized by the grant in grant
year 2. This would be accomplished by not requesting reimbursement for funds spent on the
Nogo research once we exceeded $2.0 million of expenses for grant year 1 and 2.

 As of March 13,2012, our actual and planned expenditures through the end of grant year 2
 (March 31, 2012) are projected to be approximately $2,055,000. As previously agreed to with
the NIH we will not be requesting reimbursement for the $53,150 related to the proceeds from
the sale of equipment in the third and fourth quarter of2010. Not requesting $53,150 of funds
from the NIH related to the grant at the end of grant year 2 has the same impact as returning the
funds and is what was agreed to with the NIH during the first quarter of2011. Additionally, a
memo to Axerion's grant file regarding our conclusions and documenting our discussions with
the NIH on this matter was drafted in the first quarter of 201 I and given to the Officer of
Inspector General as part of their review of expenses. A copy of this memo is included as
appendix 1 for further reference.
                                                                                                          Page 1 of 2
                          APPENDIX B: NATIONAL INSTITUTES OF HEALTH COMMENTS 


:., ....,J
   '" 'U\<"'"



\,{f-
                      DEPARTMENT OF HEALTH &. HUMAN SERVICES                                    Public Health Service



                                                                                                NationallnstitLlte s of Health 

                                                                                                Bethesda, Maryl and 20892 





                TO:            Michild J. Annstrong
                               Regional Inspector General for Audit ervices, Region I, HHS

                FROM:          Director, NIH

                S     JEeT:    NIH Response to Draft Office of Inspector General Report, Axerion
                               Therapeu tics Claimed AlIoH'able Re(;DVef~ Act Grant Costs hut Did Not
                               Account/or Earned Program Income (A-OI-II-02509)


                Attached arc general and technical comments from the National Institutes of Health in
                r   ponse to the draft Office of Inspector General report entitled, AxeriOI1 Therapeutics
                  'Iaimed Allowable Recove/~Y Act Grant Costs by Did Not Account for Earned Program
                Il1come ( -01-11-02509) .

                We appreciate the opportunity to review and comment on the draft report. Should you
                have questions or concerns regarding our comments, please contact Meredith Stein in the
                Office of Management Assessment at 301-402-8482.



                                                              ~~ :),I.A.­
                                                   f~        Francis S. Collins, M.D., Ph.D .

                Attachments
                                                                                         Page 2 of 2




GENERAL COMMENTS OF THE NATIONAL INSTITUTES OF HEALTH ON THE
DEPARTMENT OF HEALTH AND HUMAN SERVICES OFFICE OF INSPECTOR
GENERAL (OIG) DRAFT REPORT ENTITLED, AXERlON THERAPEUTICS
CLAIMED ALLOWABLE RECOVERY ACT GRANT COSTS BUT DID NOT ACCOUNT
FOR EARNED PROGRAM INCOME (A-OI-ll-02S09)


The National Institutes of Health (NIH) appreciates the review conducted by the OIG and the
opportunity to provide clarifications on this draft report. We respectfully submit the following
general comments. Technical comments are included as a separate attachment.

OIG Finding 1: The grantee claimed costs of$950,844 that were allowable under the terms of
the grant and applicable Federal regulations; however, the grantee did not account for
$53,966 in program income earned from the sale of equipment that was purchased for the
grant (page 2).

The NIH concurs with the finding and intends to recover $53,966 in costs from the sale of
equipment that was originally purchased as part of a used biologics lab under Recovery Act grant
number 1 RC3 NS 070629-01 . However, NIH does not agree that the costs be considered
earnings from program income. As confirmed by the grantee, the equipment that generated
income by its sale was not needed for purposes of the grant; therefore, the costs were not
allocable to the grant and are unallowable. Upon further consideration, the NIH grants
management officer, referenced on page 3 of the OIG report, and the Chief Grants Management
Officer at the Institute, as well as NIH's Office of Extramural Research, agree that the costs of
the equipment that did not benefit the project are considered unallowable, although the purchase
of the biologics lab with equipment is allowable. Therefore, these costs should be regarded as
unallowable costs instead of program income and should be recovered from the grantee by NIH. ·
The NIH intends to recover the costs.
